IN THE

Supreme Court of the Gnited States

No.

INDIAN RIVER COUNTY, FLORIDA; INDIAN RIVER
COUNTY EMERGENCY SERVICES DISTRICT,

Petitioners,
Vv.

UNITED STATES DEPARTMENT OF TRANSPORTATION;
ELAINE L. CHAO, IN HER OFFICIAL CAPACITY AS
SECRETARY OF TRANSPORTATION; UNDER SECRETARY
OF TRANSPORTATION FOR POLICY; FEDERAL
RAILROAD ADMINISTRATION; PAUL NISSENBAUM,
IN HIS OFFICIAL CAPACITY AS ASSOCIATE
ADMINISTRATOR OF THE FEDERAL RAILROAD

ADMINISTRATION; AAF HOLDINGS LLC,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit

CERTIFICATE OF COMPLIANCE

Pursuant to this Court’s Rule 33.1(h), I hereby certify that the Petition for a Writ

of Certiorari contains 8,987 words, excluding parts of the document that are exempted by
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 18, 2020.

  

amipshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000

jlamken@mololamken.com

Counsel for Petitioners
